3

\

■

;

No'.

%

:

R LED i;

SEP 1 6 2019

l

IN THE:
OFFICE OF THE Ci FRk’

\

SUPREME COURT OF THE UNITED STATES
SAMUEL C. MOHORNE/
Petitioner,
v.

BEAL BANK, SSB, et al„
Respondents.
On Petition For Writ Of Certiorari
To The Eleventh Circuit Court ofAppeals

/

PETITION FOR WRIT OF CERTIORARI
SAMUEL C. MOHORNE
6965 NW 19th Court
: ; Margate, FL 33063
■ (754) 235 5019
Emails divinelaw67@yahoo.corn

RECEIVED

1

QUESTIONS PRESENTED FOR REVIEW
1. What is the appropriate procedure when the
Court uses a service of foreclosure order for
one property and takes two properties in one
ii foreclosure?
2; Whether the State Court alias writ on the
Debtor’s Homestead Property were
:: unconstitutional without a foreclosure by the
State Court.

11

PARTIES INVOLVED
BEAL BANK SSB ii
Liebler, Gonzalez & Portuondo
C/O Dora F. Kaufman
C/O Alan Pierce
44 West Flagler Street
Miami, FL 33130
(305) 379-0400
Broward County Sheriff Office
Legal Department
2601 W. Broward Blvd
i
i Fort Lauderdale, FL 33312
(954) 765-4321
: Broward County State Attorney
Michael J. Satz.
201 SE 6>h ST #655 ii
Fort Lauderdale, FL 33301
(954) 831-6955
Office of Attorney General
Ashley Moody
State of Florida
The Capital PL01
Tallahassee, FI 32399-1050

Ill

RELATED CASE
Davis v. Tyson Prepared Foods Inc., No.18*941, U.S
Supreme Court judgement entered Oct. 17, 2018.
Pinpoint IT Services, LLC v. Rivera (In re Atlas IT
Export Corp.), NO. 761 F.3d 177 ^
1st U.S. Circuit Court. Judgement entered : 2014.

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW..i
PARTIES INVOLVED..........................
11
RELATED CASES.................................
in
vi
TABLE OF AUTHORITIES.................
1
WRIT OF CERTIORARI.......................
OPINIONS BELOW..............................
1
STATUTES AND CONSTITUTIONAL....... 2
STATEMENT OF CASE........................... 2
REASON OF GRANTING CERTIORARI.... 4
COMPLAINT ..
5
CONCLUSION
15
APPENDIX
Appendix A 2019 Mandate
Appendix B 2018 Mandate .
Appendix C 2018 Order.....
Appendix D 2018 Order.....
Appendix E 2017 Order ....
Appendix F 2010 ...............
Appendix G 2008 Letter....
Appendix H 2008 Order ....
Appendix I 2006 Order.....
Appendix J 2006 Order .....
Appendix K 2006 Motion ...
Appendix L 2006 Order....
Appendix M 2005 Order....
Appendix N 2005 Order .....
Appendix O 2005 Order ....
Appendix P 2005 Order......
Appendix Q 2005 CT Order

la
7a
14a
21a
24a
40a
48a
49a
50a
57a
59a
62a
64a
67a
69a
71a
79a

V.

Appendix R 2003: Levy......
Appendix S 2003 VOLD Notice
Appendix T 2002 Order..-:..:........
Appendix U 2002 Proof of Claim
Appendix V 2000 Order ......
Appendix W 2000 Order . ..........
Appendix X 2000 Order .........__

■/

;<

80a
82a
84a
86a
87a
90a
92a

'

\

P

VI

TABLE OF AUTHORITIES
Page(s)

Cases

America Nat. Bank v. Fed. Deposit Ins. Corp.,l\Q
......... ...22
F.2d 1528, (11th Cir. 1983) .:.;
i Bullard v. Blue Hills Bank, 135 S. Ct.. 1686
(2015):...;.............................................

15

In re Donovan, 532 F.3d 1134 (llth Cir. 2008)...:.. 6
Maynard v, Miller, 182 So.2d 220 (FLA. 1938)
Miller v. Griffin, 128 So.2d 416 (FLA. 1930)

8
..7

: Ritzen Group, Inc. v. Jackson Masonry, LLC, No ::
15
18-938 (Supreme Ct Oct 4, 2019)
Sussman v. Salem Saxon & Nielson, PA 153 F.R.D.
i 689,(M.D. FLA; 1994)
14

STATUTES and RULES
Department of State’s Database Pursuant to F.S.
8
: 56.27(4)
J....
Fla. Chapter 501 Consumer Protection .:

15

: Memorandum of Law 60(b)(1-5) : :
State Statue# 812.012-812.037 or 825.103(1) of the
.... 10
Florida

'

1
PETITION FOR A WRIT OF CERTIORARI
Samuel Mohorne petitions for a writ of certiorari to
review the judgement of the United States Court of
Appeals for the Eleventh Circuit in this case.
OPINIONS BELOW
The Eleventh Circuit Court of Appeals opinion is
reported at Mohorne v. Beal Bank, et. al.
No. 18-14776 (11th Cir.2019). The 11th Circuit’s
denial of petitioner’s motion for reconsideration to
reopen and grant automatic stay.
Mohorne v. Beal Bank, et. al.
No. 17-13534 (11th Cir.2018) vacated and remanded
the case back to the District Court 02/12/2018 for
further proceedings
JURISDICTION
The Jurisdiction of the Court of Appeals was entered
on July 18, 2019. The jurisdiction of this Court is
invoked 28 U.S.C § 158(a)(b)

2

STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED
14™ Amendment of the Constitution,
Fla.R.Civ.P.F.S 812.014 (l) (6); Rule, and Fla.
Chapter 501 Consumer Protection Law.
STATEMENT OF THE CASE
The nature of the case below involves a relief from
stay being granted on the Petitioner (Samuel
Mohorne’s) Homestead Real Property “Post Office
address” in a 2005 Bankruptcy proceeding, which
followed after a 1999 and a 2002 bankruptcy where
the automatic stay had not been lifted against the
Petitioner’s Homestead property legal description.
Throughout the 1999 and 2002 bankruptcy
proceedings the federal bankruptcy Judge Paul G.
Hyman had made an earlier determination as to
creditor’s lien having a right to attack the non­
homestead real property versus the creditors not
having any claim/rights to the homestead property.
Inside of the 2002 BANKRUPTCY preceding the
honorable Paul G. Hyman declared his previous
orders as Res Judicata on the issue. Following the
case being closed, the Respondent (“Beal Bank”)
proceeded to foreclose on the Petitioner (“Samuel
Mohorne”) in State Court for the 2610 Property
AJ/KJA to wit:
Lot 44 Less the North 10 Feet for Street(“Subject
Property”)
Respondent (“Beal Bank”) received a final Judgment
of Mortgage Foreclosure... After the January 24,

3
2005 final Judgement on the Petitioner’s none
homestead real property on September 8, 2005(“Beal
Bank”) the Respondent were issued a writ of
possession on the Petitioner’s homestead P.O. Box
Address.
The Petitioner then filed bankruptcy on September
12, 2005. On a preliminary hearing in open court on
October 11, 2005 Judge Hyman was misled by the
Respondents’ attorney and granted the Respondents
relief from stay in an order on October 17, 2005
without an evidentiary hearing. The order had
included the Petitioner’s P.O. Box address without
the Petitioner’s legal description, note below:
Lot 44 Less the North 10 Feet Street,
Ford’s Manor, according to the Plat there of,
AJKJA 2610 N.W. 13th Street Pompano Beach, FL.
33069
A/K/A 1211 N.W. 26th Avenue Pompano Beach, FL.
33069
By surpi’ise the City were taken by storm from
Hurricane Wilma. The courthouse was closed for a
few days. When it reopened the Petitioner through
Counsel filed a motion for rehearing, which got
misplaced for well over a year by the Clerk of Court.
Then after a dialog of hearings was dismissed on the
matter, later the rehearing then surfaced and was
tagged as DE# 74. The Petitioner was denied due
process on a series of nunc pro tunc motions, the
appeal then was ensued.

4
REASON FOR GRANTING CERTIORARI
This case is in the interest of the people and the
nation to prove; Beal Bank, Broward County Sheriff
and Broward County State Attorney cannot take
another person property without Due Process of the
Law!
A. The circuits are irrevocably split on whether
an order denying a request for relief from
automatic stay is always final and appealable.
Two circuits recognized that a denial of motion from
relief of stay, unlike an order granting relief from
stay, is not always final and appealable under
settled principles of finality that have long governed
bankruptcy cases seven circuits have adopted a
“blanket rule” which provides that orders denying
motions for relief from the automatic stay are always
appealable. The Eleventh Circuit vacated and
remanded the case back to the District Court
02/12/2018 for further proceedings. This case has
caused a circuit split considering the 2018 mandate
vs. the 2019 mandate of the Eleventh Circuit Court
of Appeals. In 2002 case number 02-27505'BKCPGH the Bankruptcy Court Judge Paul
Hyman rendered the property back to the Petitioner
prior to the State Court Judge, taking the property
without a foreclosure save only a service of a writ of
possession in 2005. See In re Lieb, 915 F.2d at 185
n.3.
B. The Finality of Some Orders in Bankruptcy
Cases Depends on Whether the Relief Sought
was Granted or Denied.

5
Unlike an order resolving all of the issues related to
a discrete claim or proceeding within a bankruptcy
case, the denial of a motion to dismiss a bankruptcy
case means the same thing it does in any other casethe case goes forward. Accordingly, the vast
majority of courts of appeal to consider the issue
have concluded that the denial of a motion to dismiss
a bankruptcy case is not final.
See, e.g., Barben v. Donovan (In re Donovan), 532
F.3d 1134, 1137 (11th Cir. 2008) (recognizing that
denial of motion to dismiss bankruptcy case is not
final).
COMPLAINT
PRO SE DEBTOR’S MOTION FOR THE COURT
TO TAKE JUDICIAL NOTICE
Comes now, that this court issued an order to cease
all actions concerning the debtors homestead
The order by John K. Olson, Judge.
a. Still the lower court still moved upon the
debtor’s homestead property evicting the
debtor and putting him in jail while this
continued the hearing we’re on the table
moving with the Broward Sherriff s Office
Beal Bank with her attorney’s moved upon
the debtor’s homestead.
In a previous Bankruptcy proceeding Judge Paul
Hyman Jr. realized the debtor’s homestead as Lot 44
south 152 FORDS MANOR according to the plat
thereof as recorded in plat book 19 page 34 B of the
public records of Broward County Florida, Property

6
ID NO 484233030322, a/k/a 1211 NW 26*h Avenue,
Pompano Beach Florida 33069-1842
1.
The lower court would not respect that
homestead property not respecting this court
previous^ order’s see_Amended Agreed: orders of
September 2000
2.
Please take judicial notice to this Court
previous: orders on October 24, 2006.
PRO SE DEBTOR/PLAINTIFFS REQUEST FOR
JUDICIAL NOTICE IN SUPPORT OF IT’S
MOTION FOR SUMMARY JUDGMENT
It is axiomatic that legal description of a
subject property is the controlling standard in
resolving any ambiguities. See generally, Miller v.
Griffin, 128 so.2d 416 (Fla. 1930)
Supreme Court of Florida specifically holding
❖
that a legal description by section, township and
range is definite and sufficient even though the
county had been omitted.
❖
The Debtor is seeking compound motion to
compel the trustee to investigate this case to see if
anyone of these properties is covered by the Beal
Bank legal description.
This Court executed an order on relief from
❖
stay on the Debtor’s homestead property as well as
the Debtor non- homestead property without an
investigation in this case; by neither the trustee nor
any administratorof this Court. So the Debtor is
seeking for this Court an order for the trustee to
investigate this matter to see if the legal description
used by Beal Bank predecessor covered either one of
❖

7.
the properties. Maynard v. Miller, 182 50.2d 220
:
(FLA. 1938) The Supreme Court ofFlorida has also
stated the rule regarding whether how precise a
; legal description m ute be in conveying land as
follows
i “[l] is well se tiled in this Jurisdiction
that if the description of the land conveyed is
such that a surveyor, by applying the rules of
' surveying, can locate the same, such ;
description is sufficient, and the deed will be
sustained ifit is possible from the whole :
: description to ascertain and identify the land
: intended to be conveyed.”
This case has been previously ruled on and ordered
by this Court on October 24, 2006 the debtor’s
: attorney Elias L. Dsouza, Esq. did his best to try to
. help the debtor with this Court case as the debtor,
got ill while fighting this case. The debtor was
rearrested again and thrown in jail for the second
time in this same case, causing him to be
hospitalized and therefore the debtor couldn’t fill
him in on this matter this Court have up to 10 years
: to follow upon this motion concerning fraud upon the
court, Beal Bank through her attorneys never sought •
to challenge or have this order sat aside look at the
record by this honorable court following this ORDER
by the honorable John K Olson on October 24, 2006
Beal Bank through Broward Sherriffs Office had the
: debtor re arrested and thrown in jail for the second
time while Judge John K. Olson: order was in place.
The Broward County Property Appraisers Office in
:: 2008 discovered their mistake that there were “2”
two separate properties owned by the debtor and

V

8

therefore, the Property Appraiser’s Attorney under
the guidance of Laura Parish placed the debtor back
in his homestead property. The certificate of title
only foreclosed on one of the debtor’s properties
Department of State’s Database Pursuant to F.S.
56.27(4)
❖
Lot 44 Less N 10 For St & Less the South 152
Fords Manor according to the plat thereof as
recorded in plat book 19 page 34 B of the public
records of Broward County Florida, Property ID NO
484233030324
❖,
Lot 44 South 152 FORDS MANOR according
to the plat thereof as recorded in plat book 19 page
34 B of the public records of Broward County
Florida, Property ID NO 484233030322,
Letter from Laura Parish.
At his 1211 address in Pompano Beach FL. 33069
the State Court foreclosure only on one of the
debtor’s properties, however they only sought an
alias writ for the second property without a
foreclosure. Is this not a record in violation of the
debtor’s due process? throughout upheld by the 4th
DCA without due process of the Law look at the
record. The mortgage was on the debtor’s none
homestead property with one foreclosure using
Broward County Sheriff Office to support them
through this deed without a foreclosure with an alias
writ on the debtors second property. Mortgage
foreclosure and two writs.

9
Motion to set aside and strike the fraudulent
transfer by Beal Bank upon debtor’s homestead
property
3.
Order: setting aside the fraudulent transfer
by Beal Bank on the debtor’s homestead property
Lot 44, the South Folio# 484233030322
With a pro pound order moving this case to the
Federal District Court for Civil Theft by the Trustee
of this Court. State Statue# 812.012-812.037 or
825.103(1) of the Florida statues
“Notice ofService”
Civil theft for trouble damages creditor’s Beal Bank
were served on March 03, 2017 their 30 days service
by certified mail process.
Judge Hyman Jr. previous order of first union and
other creditors on debtors none homestead property.
TAKE JUDICIAL NOTICE
Lot 44 Less N 10 For St & Less the South 152 Fords
Manor according to the plat thereof as recorded in
plat book 19 page 34 B of the public records of
Broward County Florida, Property ID NO
484233030324
Lot 44 South 152 FORDS MANOR according to the
plat thereof as recorded in plat book 19 page 34 B of
the public records of Broward County Florida,
Property ID NO 484233030322,

4.
The State Court ruled on what it stated the
based on the debtor’s intent but his does not

10
:: correlates on what Judge Paul Hyman’s previous
bankruptcy Court: orders which was based on the
debtor’s homestead property verses the none
: homestead property of the debtor
5. ; These actions by the State and the 4th DCA
Court Of appeals did not change their directions
i forwarding Lot 44 Less N 10 For St & Less the
South 152 Fords Manor according to the plat thereof
as recorded in plat book 19 page 34B of the public
records of Broward County Florida,; Property ID NO
484233030324 the State Court Judge Jeffery E.
Streitfield violated the debtor’s due process of Law.
PRO SE DEBTOR’S MOTION FOR SUMMARY
JUDGEMENT
J 6.
The problem with case is that the Bank’s : ;; ;
Predecessor’s mortgaged the debtors nonehomestead property look at the mortgage the Note
; Mortgage and certificate of title and the assignment
of mortgage transcript throughout property ID# 24
Lot Less N 10 for St & Less the South; 152; Fords
... Manor........
7.
Beal Bank was not the Original writers of
this -loan; they inherited it through an assignment of :
: : Mortgage! Alliance Funding, a division of Superior
Federal Savings Bank FSB, did this loan in/on
October 26, 2001. So now comes Beal Bank pulling
; up Old Records from the Property Appraiser Website
on an old property that had been separated many
years before Beal Bank’s time prior to the “Beal
: Bank” of mortgage assignment to this loan being .
inherited of this loan look at the record this was
already “2” two different parcels of lands many years :

11
before Beal Bank’s time! Look at Judge Hyman's
previous orders by the property and the Property
Appraisers letter. See also the judicial notice of
Judge Paul Hyman’s: orders.
Beal Bank pulled up old records that no
8.
longer exist anywhere. See the record the of legal
description that Beal Bank used no longer exists at
the time of this loan.
THE 4th DCA only wanted to talk about what
9.
it’s INTENT look at the record loans are not drafted
on INTENT look at the 4 corners of the squares on
what did the October 26, 2001 loan were made up of
in the legal description used to cover the Mortgage
October 26, 2001 of also view State Court transcript.
Lot 44 Less the north 10’ For street Folio/Property
ID# 484233030324
10.
Beal Bank have now executed “2” two
fraudulent transfers of title/to the debtor’s
homestead property which should be stricken from
the debtor’s homestead property by this Court.
Lot 44 South 152 of Ford’s Manor
Property /ID# Folio 484233030322
On two old legal descriptions that no longer exists
anywhere. Lot 44, had already been divided into “2”
two different parcels of land with two different legal
descriptions of lands Lot 44, south 152

Lot 44 the North 10’ Street 153

12
The properties were divided into two halves June ,5,
1996 north and south
11.
Beal Bank is Inter Alios to the contract.
Between Alliance Funding and Debtor Samuel C.
Mohorne-EL therefore they did not know about the
contract. Pryor to their assignment of Mortgage!
12.
Debtor/Plaintiff would like to incorporate the
transcripts of the State Court and expert witness
Marty Waite to this motion for summary Judgement
also the transcript of Judge Jeffery E. Streitfield
based his ruling of intent instead of the mortgage
documents see Alias writ post foreclosure September
8, 2005.
13.
The debtor’s previous Attorney in the State
Court Objected the State Court ruling on intent see
the State Court transcript.
14.
James 0 Walker III stated that mortgages
are not drafted off intent and could be
acknowledging only what be lined between the “4”
four corners of the square see line 7 page 7 see also
Mr. Marty White the expert witness answer saying
“No” that his legal does not correlate to the south
description State Court transcript. Page 7 line 12.
15.
Please view page 9 line 25 document that the
mortgage were only on the vacant parcel of the
debtor’s none homestead property see Exhibit 10
Mortgage and CT (Title).

16.
This Court should bring charges up against
the 4th DCA’s Judges along with Judge Jeffery E.

13
Streitfield upon the 4th Judges in this case for
grounds for Civil Theft because this case is crystal
clear of fraud had taken place!
17.
In this matter of Civil Theft. Debtor/Plaintiff
move this Court to take Judicial notice upon the
State Court Judge Jeffery E. Streitfield alone with
the 4th DCA Judges 3 Judges who took part in this
case of Civil Theft. Judges Gunther, Klein and May
J.J. Coneur did not disturb the debtors south
property however they based their State Court
Foreclosure on Lot 44 Less N 10 For St & Less the
South 152 Fords Manor according to the plat thereof
as recorded in plat book 19 page 34B of the public
records of Broward County Florida, Property ID NO
484233030324 did not disturb the debtor homestead
less of south property 152.
18.
Along with the Attorney firms involved in
this matter, of Civil Theft!
19.
The Debtor Plaintiff brings the Court to view
the deposition of Marty Waite and its entirety.
WHERE FORE THE DEBTOR PLAINTIFF
SHOULD GET RELIEF IN THIS MATTER OF
CIVIL THEFT MY PRAYER FOR RELIEF
Wherefore in this, the movant Mohorne-EL is
seeking from this Honorable Court an order setting
aside the fraudulent transfers and charging (Beal
Bank SSB) with Civil Theft in this I remain as in my
prayer to this Court. Sussman v. Salem Saxon &
Nielson, PA 153 F.R.D. 689,(M.D. FLA 1994)

14
Debtor Plaintiff was granted his fourth modified
Chapter 13 plan on January 8, 2010 by Judge John
K Olsen United States Bankruptcy Court. Bullard
v. Blue Hills Bank, 135 S. Ct. 1686 (2015)
Also Defendant’s Motion for entry of Judgement in
State Court.
This Court has Jurisdiction over this matter.
“Memorandum ofLaw”
Cooper v. Aaron (1958)
Holding: States cannot nullify decisions of the
federal courts.
Several government officials in southern states,
including the governor and legislature of Alabama,
refused to follow the Supreme Court's Brown v.
Board of Education decision. They argued that the
states could nullify FEDERAL COURT decisions if
they felt that the federal courts were violating the
Constitution. The Court unanimously rejected this
argument and held that only the federal courts can
decide when the Constitution is violated.
Debtor plaintiff is a disabled American
Veteran.
❖
This case violated the Chapter 501 Consumer
Protection Entire Chapter of the Debtor.
❖
Section 1377 Violations involving homeowners
during the course of residential foreclosure
proceedings.

15
Memorandum of Law in the case ofRitzen Group,
Inc. v. Jackson Masonry, LLC, No 18-938 (Supreme
Ct Oct 4, 2019)
The Jurisdiction of the Court of Appeals was entered
Februaryl2, 2018 . The jurisdiction of this Court is
invoked 28 U.S.C § 158(a)(b).
Conclusion
In Conclusion, the Petitioner was denied due process
of Law by error of the Clerk of Court misplacing the
file for rehearing the Federal Bankruptcy Court
obtained Jurisdiction over the Petitioner’s
Homestead Property in a 1999 Bankruptcy Case#
99-26074-PGH (chapter 13) on his Homestead
Property describe as:
Lot 44 South 152, Ford’s Manor, according to the
Plat thereof, recorded in Plat Book 19, page 34
(Petitioner emphasis added in Bold)
Since that time there is no Debtor or Creditor that
have made any other Jurisdictional debt or claim
since thereon the Petitioner Homestead Property.
However, there are many creditors that have drawn
a claim to the Petitioner Non-Homestead Property
listed in the description below as:
“Lot 44 less the North 10 Feet for Street, Ford’s
Manor, according to the Plat thereof, recorded In
Plat Book 19,page 34 of the Public Records of
Broward County, Florida”.

16
: : Which prevented the Petitioner from a fare right to :
: be heard and a fair appeal on the issues that were
brought before the Court for the order of the docket
plays a great role in the control of the Court: (2) :
.: Secondly the issues on the case at Bar were already:
determined as Res Judicata by Judge Paul G.
Hyman, Jr. in two previous Bankruptcy proceedings
: (1999 and 2002). (3) Third Beal Bank, S.S.B should:
not be permitted to perform Fraud upon the Court
unlike any other Debtor or Creditor. The Law is the
: Law and Beal Bank, S.S.B should not be exempt.
Under this deferential standard, the lower court’s
: findings of fact shall stand unless: the reviewing; ;:::
court is left with the “deferential standard, the lower
court’s finding of fact shall stand unless the:
:: reviewing court is left with the “definite and firm
impression that a. mistake has been made,” America
Nat. Bank v. Fed. Deposit Ins. Corp.,110 F.2d 1528,
: (11th Cil'. 1983);
.

...
:

:

: ;

Therefore,:the relief from stay on the Petitioner’s
Homestead P.O. Address should be stricken. (2) ..
Because Beal Bank, S.S.B was not a Creditor. The :
Petitioner’s at the time of their proof of claim and
objections to the Petitioner’s confirmation in his
2002 BANKRUPTCY proceeding, to which forced the
petitioner into Foreclosure Case#03-1691L That
Foreclosure on the Petitioner’s real Property should
be stricken at large and made unenforceable. The
Petitioner should get relief on this matter of civil
theft in this case.

17
Debtor/Plaintiff object to the tampering of the: docket
by the clerk of bankruptcy court in this appeal'by the
Bankruptcy Court.
Respectfully submitted,
SAMUEL C. MOHORNE
6965 NW 19'h Ct
Margate, FI 33063 "
754-235-5019

